3itt the

Ouprente Court of the Zilittiteb Otateo
MUSHKIN, INC.
Petitioner,
v.
ANZA TECHNOLOGY, INC.
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that
the Petition for a Writ of Certiorari contains 8930 words,
excluding the parts of the petition that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on November 12, 2019

D. SCOTT HEMINGWAY
Hemingway & Hansen, LLP
1700 Pacific Ave., Ste. 4800
Dallas, Texas 75201
Telephone: (214) 292-8301
Attorney for Petitioner

RECEIVED
NOV 12 NM
OFFICE OF THE CLERK
SUPREME COURT, U.S.

